Audit Report 98-03
ASSET FORFEITURE PROGRAM
MANAGEMENT LETTER REPORT
FISCAL YEAR 1995
Audit Report 98-03, (1/98)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
REPORT TO MANAGEMENT
UNITED STATES MARSHALS SERVICE
Segregation of Duties
Gross Proceeds from Sale of Forfeited Property
Contracts/Procurement
Issues Repeated from the FY 1994 Management Letter Report
Property Appraisals
Property Inspections
Compliance Reviews
FEDERAL BUREAU OF INVESTIGATION
Asset Management and Disposal Costs
IMMIGRATION AND NATURALIZATION SERVICE
Reimbursable Expenses
APPENDIX I--Justice Management Division's Response to the Draft
Report dated October 7, 1997
APPENDIX II--Audit Division's Analysis and Summary of Actions
Necessary to Close the Report
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Department of Justice Asset Forfeiture Program (Program) is a nationwide law
enforcement program. Federal employees, contract personnel, and state and local law
enforcement officials work cooperatively in the investigation and prosecution of cases
involving asset seizure and forfeiture. There are six Department of Justice components
that execute the Program: the Drug Enforcement Administration; the Federal Bureau of
Investigation; the Immigration and Naturalization Service; the U.S. Marshals Service; the
U.S. Attorneys; and the Criminal Division. The U.S. Postal Inspection Service, the U.S.
Park Police, and the Food and Drug Administration are the non-Department of Justice
federal participants in the Program.
The Justice Management Division's Asset Forfeiture Management Staff provides
administrative and financial management functions for the Program. The legal, policy, and
oversight responsibilities reside with the Asset Forfeiture and Money Laundering Section,
Criminal Division.
The Office of the Inspector General (OIG) contracted with Brown & Company to
perform the audit. The management letter report was prepared by Brown & Company,
Certified Public Accountants, as part of their audit of the Program's annual financial
statement for the fiscal year ended September 30, 1995 (OIG Report #96-21A). The auditors
were not contracted to perform control testing sufficient to enable them to express an
opinion on management's assertions about the effectiveness of the internal control
structure. However, certain conditions involving the internal control structure and its
operations were identified and are being reported to management through this report. The
management letter presents those areas of concern that, in the independent auditors'
judgment, do not adversely affect the Program's ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial
statements. However, strengthening internal controls in these areas is considered
important and presents an opportunity to improve operating efficiency.
The OIG performs an oversight role in the audit process and ensures compliance with the
Chief Financial Officers Act of 1990 by monitoring the progress of the audit, reviewing
supporting workpapers, coordinating the issuance of reports, following up on management
letter issues, and performing other functions deemed necessary under the circumstances.
The audit was conducted in accordance with generally accepted government auditing
standards.
Brown & Company noted control issues in the following areas: (1) segregation of
duties, (2) gross proceeds from the sale of forfeited property, (3) contracts/procurement,
(4) asset management and disposal costs, and (5) reimbursable expenses. The auditors again
reported issues, previously reported in the FY 1994 Management Letter Report (OIG Report
#96-03) in the following areas: (1) property appraisals, (2) property inspections, and (3)
compliance reviews. Although the conditions are the same, it should be noted that the
control deficiencies occurred in different locations than those of the prior report.
APPENDIX I
APPENDIX II
OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
TO CLOSE THE REPORT
Recommendation Number:
Resolved. This recommendation can be closed when the USMS provides the OIG with
associated memoranda documenting how it has reinvigorated its policy enforcement of
segregation of duties.
Resolved. This recommendation can be closed when we receive a copy of the revised
USMS policy/procedures requiring all vendors to remit gross sales proceeds and submit
invoices for their expenses.
Resolved. This recommendation can be closed when the USMS provides us with
documentation supporting its reiteration of procurement policy relative to procurement and
purchase requirements exceeding the acquisition threshold ($25,000).
Resolved. This recommendation can be closed when the USMS informs us of how it
plans to monitor District Offices and ensure compliance with its policy to perform and
document property appraisals and monthly inspections of seized property.
Resolved. This recommendation can be closed when the USMS informs us of how it
plans to ensure that required compliance reviews are performed and appropriately
documented.Your response stated that the compliance review policy is meant to cover
only those contractors whose aggregate business exceeds $25,000 and that the requirement
for reviews used as a basis for the recommendation is considered beyond the intent of the
USMS policy. We accept your response on this point; however, we would advise that your
policy be clarified to reflect the actual meanings and intentions.
Closed. Based on your response, we are closing this recommendation. Your response
states that the Attorney General's Guidelines on Seized and Forfeited Property allow some
exceptions for a seizing agency to maintain custody of assets (vehicles) that will be
placed into official use. In the future, please ensure that all AFP participants maintain
adequate support for exceptions to these policies.
Resolved. This recommendation can be closed when the Immigration and
Naturalization Service provides us with documentation identifying the changes made to its
internal systems that now ensure appropriate support documentation for Asset Forfeiture
Program transactions is available for review.
#####